No.

 

In THE
Supreme Court of the Anited States

ANTONIO DESHAWN PITt,
Petitioner,

Vv.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

CERTIFICATE OF SERVICE

I, Eric J. Brignac, a member of the Bar of this Court, hereby certify that on
this 12th day of August, 2020, I have served the enclosed motion for leave to proceed
in forma pauperis and petition for a writ of certiorari on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
via Federal Express. The names and addresses of those served are:

JEFF WALL

ACTING SOLICITOR GENERAL OF THE UNITED STATES

UNITED STATES DEPARTMENT OF JUSTICE

950 Pennsylvania Avenue, N.W.

Room 5616
Washington, D.C. 20530-0001

JENNIFER MAY-PARKER

ASSISTANT UNITED STATES ATTORNEY
OFFICE OF THE UNITED STATES ATTORNEY
EASTERN DISTRICT OF NORTH CAROLINA
United States Attorney’s Office
Eastern District of North Carolina
150 Fayetteville Street, Suite 2100
Raleigh, NC 27601

Counsel for Respondent

I further certify that all parties required to be served have been served.

ERIC J. BRIGNAC

CHIEF APPELLATE ATTORNEY

OFFICE OF THE FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St., Suite 450

Raleigh, N.C. 27601

(919) 856-4236

Eric_Brignac@fd.org

Counsel for Petitioner
